No. 20-1817

IN THE

Supreme Court of the United States
EZAKI GLICO KABUSHIKI KAISHA, D/B/A/ EZAKI GLICO CO., LTD. &
EZAKI GLICO USA CORP.,
Petitioners,
v.
LOTTE INTERNATIONAL AMERICA CORP. &
LOTTE CONFECTIONARY CO. LTD.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

CERTIFICATE OF WORD COUNT

Pursuant to Rule 33.l(h) of the Rules of this Court, I, Mary D. Hallerman, a
member of the Bar of this Court, certify that the accompanying Brief in Opposition
for Respondents Lotte International America Corp. and Lotte Confectionary Co. Ltd.,
which was prepared using Century Schoolbook 12-point typeface, contains 8,997
words, excluding the parts of the document that are exempted by Rule 33.l(d). This
certificate was prepared in reliance on the word-count function of the word processing
system (Microsoft Word for Office 365) used to prepare the document.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 28, 2021

Mary D. Hallerman

